OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/WEST
AFRICA’S MANAGEMENT OF
THE P.L. 480 NON
EMERGENCY MONETIZATION
PROGRAM IN BURKINA FASO
AUDIT REPORT NO. 7-624-07-001-P
February 27, 2007




DAKAR, SENEGAL

Office of Inspector General


February 27, 2007

MEMORANDUM

TO:       	          USAID/West Africa Mission Director, Dr. Jatinder Cheema

FROM: 	              RIG/Dakar, Nancy Toolan /s/

SUBJECT:	            Audit of USAID/West Africa’s Management of the P.L. 480 Non-Emergency
                     Monetization Program in Burkina Faso (Audit Report No. 7-624-07-001-P)

This memorandum is our final report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report and included them in Appendix II.

This report contains three recommendations to which you agreed in your response to the draft
report. Based on your plans in response to the audit findings, management decisions have
been reached on all of the recommendations. However, the three recommendations will
remain open until the planned actions are completed by the Mission. Please coordinate final
actions on these recommendations with USAID’s Audit Performance and Compliance Division
within the Management Bureau’s Office of the Chief Financial Officer (M/CFO/APC).

I appreciate the cooperation and courtesies extended to the members of our audit team during
this audit.




U.S. Agency for International Development
Ngor Diarama, Petit Ngor, BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 4 


Are USAID/West Africa’s P.L. 480 Non-Emergency 

Monetization activities in Burkina Faso achieving selected
planned outputs?............................................................................................................... 4 


     Several Planned Outputs Were Not
     Achieved ..................................................................................................................... 6 


     Reported Results Need to Be Accurate 

     and Supported With Adequate 

     Documentation ............................................................................................................ 9 


     Improvement Needed in Monitoring of
     School Feeding Program .......................................................................................... 11 


Evaluation of Management Comments ....................................................................... 13 


Appendix I – Scope and Methodology ........................................................................ 15 


Appendix II – Management Comments ....................................................................... 17 


Appendix III – Comparison of Planned and Actual Outputs ..................................... 19 

SUMMARY OF RESULTS

This audit, performed by the Regional Inspector General in Dakar, is one of a series of
audits conducted by the Office of Inspector General. The objective of this audit was to
determine whether USAID/West Africa’s P.L. 480 non-emergency monetization activities
in Burkina Faso were achieving selected planned outputs. (See page 3.)

We concluded that USAID/West Africa’s P.L. 480 non-emergency monetization activities
implemented by Catholic Relief Services (CRS) and Africare in Burkina Faso were not
achieving selected planned outputs because only 17 of 22, or 77 percent, of the
reviewed outputs were achieved at the 90 percent or higher level – slightly below our
threshold of 80 percent. However several outputs were achieved at 100 percent or
higher by both cooperating sponsors, demonstrating a positive impact in Burkina Faso.
Furthermore, the program activities were well managed and supervised by the
USAID/West Africa Food for Peace (FFP) staff. (See pages 4-6).

Despite the positive achievements, CRS had not achieved 2 of its 12 selected outputs,
but had taken steps to address problems that resulted in the under-achievement.
Africare had not achieved 3 of its 10 selected outputs, and had not taken any steps to
address the problems that resulted in its lack of achievement. (See pages 6-8.)

We also found that the monitoring and reporting functions at the two cooperating
sponsors could be improved. We discovered discrepancies when comparing the
cooperating sponsors’ reported results with supporting documentation. In addition, the
cooperating sponsors did not always have sufficient documentation for substantiating
results reported to USAID/West Africa. In addition, CRS could not sufficiently monitor
whether the schools within its school feeding program were being visited at least twice a
year, as required. (See pages 9-12.)

This report includes three recommendations to assist USAID/West Africa in the
management of its P.L. 480 non-emergency monetization activities.                First, we
recommend that USAID/West Africa require its cooperating sponsor, Africare, to develop
a plan for addressing its internal cash flow problems to mitigate the effect on achieving
planned outputs. Second, we recommend that USAID/West Africa require both
cooperating sponsors (CRS and Africare) to develop procedures for verifying reported
data with source documentation, documenting key assumptions and calculations, and
maintaining documentation to support results and other data reported to USAID. Third,
we recommend that USAID/West Africa require CRS to develop a system that will
enable it to determine whether the schools within its school feeding program are visited
at least twice a year as required and that the information indicating frequency of visits
and issues encountered during the visits is readily available. (See pages 9-12.)

USAID/West Africa concurred with the recommendations and based on planned actions
to be taken by the Mission, management decisions have been reached. However, the
three recommendations will remain open until final actions are taken by USAID/West
Africa and coordinated with USAID’s Audit Performance and Compliance Division within
the Management Bureau’s Office of the Chief Financial Officer (M/CFO/APC). (See
pages 17-18).




                                                                                        1
BACKGROUND

A major response by the U.S. Government to the problem of food insecurity in
developing countries is the nearly one billion dollars spent annually on food aid. Under
Title II of Public Law (P.L.) 480 or the Agricultural Trade Development and Assistance
Act of 1954, the U.S. Government provides agricultural commodities to foreign countries
to (1) address famine or other urgent or extraordinary relief requirements; (2) combat
malnutrition, especially in children and mothers; (3) carry out activities that attempt to
alleviate the causes of hunger, mortality and morbidity; (4) promote economic and
community development; (5) promote sound environmental practices; and (6) carry out
feeding programs.

USAID’s Office of Food for Peace (FFP), through funding provided by P.L. 480 Title II,
makes commodity donations to cooperating sponsors1 to address the needs of food
security in both emergency food assistance programs and non-emergency, multi-year
development projects. Title II monetization, the selling of agricultural commodities to
obtain foreign currency for use in U.S. assistance programs, began in 1986.
Monetization proceeds are used to support the provision of basic health services,
nutrition education, agricultural extension and training, and local capacity building, and
have grown dramatically becoming a critical resource for cooperating sponsors. As a
result, the 1996 amendment of P.L. 480 Title II increased the amount of commodities to
be monetized to be not less than 15 percent of the aggregate amounts of all
commodities distributed under non-emergency programs annually.

The P.L. 480 Title II non-emergency monetization program in Burkina Faso is managed
by USAID/West Africa. The USAID/West Africa is located in Accra, Ghana, with a
satellite office in Dakar, Senegal, where the FFP staff are located. Program activities in
Burkina Faso are implemented by two cooperating sponsors: Catholic Relief Services
(CRS) and Africare, with oversight provided by the Regional FFP Office of USAID/West
Africa. CRS’ development assistance program covers FY 2004 to FY 2009 with
activities in agriculture, education, microfinance, and general relief.       Africare’s
development assistance program covers FY 2005 to FY 2009 with activities in
agriculture, health and nutrition, microfinance, and capacity building. The amounts
programmed by FFP for each cooperating sponsor’s program are $62.8 million and
$15.6 million, respectively. The majority of these amounts are for the costs of the
donated commodities and the related ocean and inland freight charges. The proceeds
generated from the monetized commodities are used to fund all of the programmed
activities within each cooperating sponsor’s development assistance programs.

CRS is the monetizing agent for Africare and provides services in logistics
(transportation, storage, and handling of commodities) and monetization for agreed upon
fees. Both cooperating sponsors are monetizing parboiled rice.




1
 Cooperating sponsors are Private Voluntary Organizations, Cooperatives, and International
Organization Agencies.



                                                                                        2
AUDIT OBJECTIVE
This audit was conducted as part of a series of worldwide audits of USAID’s
management of its P.L. 480 non-emergency monetization activities included in the Office
of Inspector General’s fiscal year 2006 annual audit plan. The audit was conducted to
answer the following question:

  •	   Are USAID/West Africa’s P.L. 480 non-emergency monetization activities in
       Burkina Faso achieving selected planned outputs?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                     3
AUDIT FINDINGS

USAID/West Africa’s P.L. 480 non-emergency monetization activities in Burkina Faso
were not achieving selected planned outputs because 80 percent of the selected outputs
were not achieved at the 90 percent or higher level. For fiscal year (FY) 2005 and FY
2006 combined, 17 of the 22 outputs (77 percent) reviewed for the two cooperating
sponsors, Catholic Relief Services (CRS) and Africare, were achieved at 90 percent or
higher level. Despite not meeting the 80 percent threshold, we found that for CRS
activities, 8 of the 12 selected outputs were achieved at the 100 percent or greater level
and 2 outputs were achieved at 90 percent or greater level. For activities conducted by
Africare, 7 of the 10 selected outputs were achieved at 100 percent or greater. (See
Appendix III for a comparison of the planned and achieved results for the 22 selected
outputs.) Furthermore, these activities were well managed and provided adequate
oversight by the USAID/West Africa’s Food for Peace (FFP) staff.

Accordingly, many of USAID/West Africa’s P.L. 480 non-emergency monetization
activities were making a positive impact in Burkina Faso. We directly observed the
positive results during our site visits, especially in the agriculture projects. Both
cooperating sponsors were training farmers in improved production techniques, as well
as in anti-erosion and soil conservation techniques. In addition, Africare was assisting
villages to construct livestock infrastructures to protect and prevent the straying or theft
of livestock intended to be sold.




               Photo of a man in front of the livestock structure constructed
               through Africare’s project. By constructing the infrastructure, his
               poultry production and sales doubled during one year. Photo
               taken in October 2006 by a Regional Inspector General/Dakar
               auditor in the Village of Kontingue, Zondoma Province.

In the area of education, CRS was contributing to the Government of Burkina Faso’s
goal of increasing enrollment in schools with its school feeding program implemented in
approximately 2,100 schools in FY 2006. CRS provided bulgur, lentils, and vegetable oil
to schools where daily meals are prepared for the students. This not only provided an
incentive for enrollment, but also fought against hunger which is so prevalent in most
remote areas in Burkina Faso, by ensuring that the children have at least one meal each


                                                                                          4
day – sometimes the child’s only meal. During a site visit to Silga Rasla School in the
province of Sanmatenga, a school that had implemented the school feeding program, we
noted an increase in enrollment of approximately 120 students in the past to 221
students enrolled during the 2005-2006 school year. The schoolmaster attributed this
increase in enrollment directly to the school feeding program.

In addition, in the area of microfinance, both CRS and Africare were well on their way to
achieving their life-of-project goals of providing credit to 16,000 and 5,600 individuals,
respectively. Both cooperating sponsors had established microfinance institutions for
providing loan capital and savings opportunities to their target group, women.




               Photo of women in the village of Nagbingou who have obtained
               credit from CRS’ microfinance program. The credit enabled the
               women to start their own businesses, send their children to
               school, and take care of their families. Photo taken in October
               2006 by a Regional Inspector General/Dakar auditor.

We attribute a large part of these positive accomplishments to the management of the
program activities by USAID/West Africa’s FFP staff. The management and oversight
provided by the staff is particularly remarkable as the staff are located in Senegal, the
USAID/West Africa Mission which provides administrative support is located in Ghana
and the cooperating sponsors and activities are located in Burkina Faso.

The Cognizant Technical Officer (CTO) for the activities has considerable experience,
working with Food for Peace for seven years. The CTO is both a Food Aid Specialist
and an Agricultural Specialist which enhances the management of the programs which
include significant agricultural activities. On an ongoing basis, the CTO performed
reviews of evaluation reports from the cooperating sponsors, as well as commodity
status reports and monitoring and tracking information. Feedback with the results of his
review and concerns was communicated in writing to the cooperating sponsors to
address and resolve. In January and February 2006 the FFP staff conducted a data
quality assessment review of both cooperating sponsors to verify the accuracy of the
results reported in FY 2005 and to evaluate the sponsors’ systems to collect and report
performance data. As a result of the assessment, recommendations for improvement
were made to both cooperating sponsors. In addition, the FFP staff including the CTO
and Deputy Team Leader provided direct oversight of the activities in Burkina Faso
through site visits. During these visits, the FFP staff met with the cooperating sponsors
and beneficiaries to discuss the program activities and the CTO also reviewed the


                                                                                        5
cooperating sponsors’ reports and spot checked source documentation for accuracy. In
addition, the CTO assessed food distributions which included visits to the central
warehouse and individual distribution centers. The FFP staff documented their site visits
in writing and communicated regularly with the cooperating sponsors by phone and
email. The FFP staff indicated they would like to perform site visits more than the
current once-per-year, but their ability to travel is limited by budgetary constraints and
workload – the CTO is responsible for 14 programs. However, given these constraints
and the distances involved, we found the level and depth of the staff’s oversight and
management of the activities to be particularly noteworthy.

Despite the cited achievements of the program and the notable management of the
program by the USAID/West Africa FFP staff, however, several outputs were not
achieved as planned and other shortcomings in the program were noted.


Several Planned Outputs Were
Not Achieved

  Summary: Of the 22 outputs selected for review, 5 were not achieved at the 90
  percent or higher level by the two cooperating sponsors. CRS failed to achieve 2 of
  its 12 outputs, but has taken action to address the low achievement levels. Africare
  failed to achieve 3 of its 10 outputs, primarily because of problems managing the
  cash flow of monetized funds, and has taken no action to address this issue.
  According to regulations, cooperating sponsors are responsible to ensure efficient
  operations including planning, implementing and evaluating program activities.
  Without adequate management addressing the problems affecting the achievement
  of planned outputs, the overall success of the program is at risk.

The following discusses the outputs not achieved in Burkina Faso during FY 2005 and
FY 2006 by each cooperating sponsor.

CRS

CRS achieved 10 of 12 outputs (83 percent) selected for review. CRS did not achieve
one output related to its Microfinance activities and one output related to its Education
activities as described below.

•	 CRS planned to train 4,000 clients in FY 2005 and FY 2006 (2,000 per year) in
   various business development skills, but only trained 2,970 clients, a 74 percent
   achievement rate. Although CRS trained 2,191 clients in FY 2005, exceeding its
   annual planned output, only 779 clients were trained in FY 2006. According to CRS,
   the lower results were due to the microfinance institution’s loss of four credit agents.
   These credit agents, responsible for conducting the training were fired because they
   were stealing the loan payments and savings deposits of clients that were entrusted
   to them for depositing at the local village bank. As a result, the microfinance
   institution was short-staffed and unable to conduct all of the necessary training. CRS
   and the microfinance institution have taken appropriate action by pursuing legal and
   criminal prosecution and are now collecting payments of the stolen funds. They also
   focused on revising and implementing better policies and procedures for collecting


                                                                                         6
   loan payments and savings deposits in an attempt to prevent such problems in the
   future.

•	 CRS had a planned output of constructing 60 school infrastructures a year for FY
   2005 and FY 2006. Although CRS constructed 79 school infrastructures in FY 2005,
   only 11 infrastructures were constructed in FY 2006, decreasing the cumulative
   achievement rate for the two years to 75 percent. CRS relies on requests from the
   Government of Burkina Faso (GoBF) and communities to build the school
   infrastructures and in FY 2006, it received fewer requests than expected. Seeing the
   lack of requests early in the fiscal year, CRS informed the communities in January
   2006 of the available resources for school infrastructure construction. Despite this
   outreach effort, CRS did not receive enough requests to achieve the planned output.
   CRS staff presumed that they did not receive many requests from the communities
   and the GoBF during FY 2006 because of plans for schools to be built in FY 2007
   through another project. As a result, CRS has made arrangements for the remaining
   FY 2006 planned school infrastructures to be completed in FY 2007 in conjunction
   with this other project.

Because of the actions taken and plans made by CRS to address the contributing
factors of the low achievement, we are not making any recommendations.


Africare

Africare only achieved 7 of 10 outputs (70 percent) selected for review. Africare did not
achieve two outputs related to its health and nutrition activities and one output related to
capacity-building activities as described below.

•	 Africare planned to implement health and nutrition activities in 104 villages by the
   end of FY 2006, but activities were implemented in only 74 villages, an achievement
   rate of 71 percent. These activities included a growth-monitoring program in which
   the growth of children aged 0-36 months is monitored with a weekly weighing. In
   addition, the village citizens are trained in various subjects related to nutrition,
   hygiene, and health. Africare failed to achieve this output in both years, with
   activities implemented in 40 of the planned 74 villages in FY 2005.

•	 Africare also planned for the construction of 30 wells to increase access to potable
   water by the end of FY 2006. However, only 10 wells were constructed representing
   a 33 percent achievement rate.

•	 Africare had a planned output of providing literacy training to 3,575 individuals
   throughout FY 2005 and FY 2006, but only 1,727 individuals received literacy
   training, an achievement rate of only 51 percent. In FY 2005, Africare achieved 89
   percent of its planned output, but in FY 2006 Africare only reached an achievement
   level of 32 percent.

According to the program staff in Africare’s field office, the lower-than-planned
achievement levels for these outputs occurred because of insufficient funding to
implement all planned activities. However, the staff could not provide details on the
nature of the funding shortage. The interim Country Representative had not been



                                                                                          7
assigned to Burkina Faso during the time periods under audit, and could not provide any
additional information, so we contacted Africare’s headquarters office in Washington, DC
to obtain further explanation of the lack of achievement of the outputs. According to
officials at the headquarters, the primary reason for limited achievement in FY 2005 was
the timing and amount of effort that went into the baseline survey conducted from March
through May 2005, a normal activity during the first year of a program. In addition,
Africare stated that delays of up to 3 months in receiving the cash proceeds from CRS
for the sales of monetized rice created a cash flow problem that directly affected their
ability to implement planned activities. Africare could not provide further explanation
about the cause of the nonachievement of the specific outputs.

Title 22 of the Code of Federal Regulations (CFR) Part 211 provides the standard terms
and conditions applicable to Title II programs. CFR 211.5 states that cooperating
sponsors shall provide adequate supervision for the efficient operation of the program
which includes planning, organizing, implementing, controlling, and evaluating programs
involving distribution of commodities or use of monetized proceeds and program income.

Through their review of reports submitted by the cooperating sponsors, the USAID/West
Africa FFP staff were aware of the achievement levels for some of these outputs and
had followed-up with the sponsor. The FFP staff also indicated that FY 2006 was a
difficult period for Africare with the turnover of much of the staff, including the departure
of the country representative. Africare acknowledged the effect of their internal
problems on the achievement of planned outputs, but they had not taken action to
address these problems. Although the focus on the baseline study directly impacted the
lack of achievement for FY 2005, we realize that it was a one-time event, and no
recommendation is being made. However, the problems with Africare’s cash flow
occurred in both FY 2005 and FY 2006 and could carry forward to future years, which
would impact the success of the program. We are, therefore, making the following
recommendation.

   Recommendation No. 1: We recommend that USAID/West Africa require its
   cooperating sponsor, Africare, to develop a plan for addressing its internal cash
   flow problems to mitigate the effect on achieving planned outputs.




                                                                                           8
Reported Results Need to Be Accurate and 

Supported With Adequate Documentation


  Summary: Discrepancies were found when comparing the cooperating sponsors’
  reported results with supporting documentation. In addition, the cooperating
  sponsors did not always have sufficient documentation to substantiate results
  reported to USAID/West Africa. This occurred because of a lack of understanding,
  on the part of the cooperating sponsors about the necessity for maintaining
  supporting documentation to substantiate reported results. USAID guidance and
  emphasizes the importance of accurate and reliable reported results and the
  Government Accountability Office’s Standards for Internal Control in the Federal
  Government emphasizes the importance of documentation. Although USAID/West
  Africa staff had made suggestions to the cooperating sponsors to improve their
  data collection and reporting, problems continue. Reporting of inaccurate results
  and the inability to support results can lead to inappropriate programmatic
  decisions.

As part of the audit, we reviewed documentation maintained by each cooperating
sponsor for supporting the results reported in their FY 2005 Results Report to
USAID/West Africa. Discrepancies were found between source documentation and
reported results for both cooperating sponsors. In addition, the cooperating sponsors
were not always able to provide sufficient documentation to substantiate the reported
results.

For example, the documentation for 4 of the 12 CRS outputs selected for review did not
correspond with the Results Report. For 2 of those 4 outputs, CRS staff insisted the
figures in the Results Report were correct but could not provide documentation to
support those figures. For example, under the General Relief component, CRS reported
providing commodity management training to 54 partners, however, each of the
attendance lists for the 3 days of training showed that only 50 individuals signed in.
CRS staff indicated that they were sure that 54 partners attended the training but had no
documentation to substantiate the additional 4 attendees. In another example, CRS
reported an output of 1,829 clients with voluntary savings but the documentation
supported only 1,734 clients with savings, a difference of 95. CRS staff explained that
the reported results included information received verbally from the microfinance
institutions, and did not always correspond with documentation submitted later.

CRS also was unable to provide documentation to support the results reported for the
output of training farmers in techniques for water and soil conservation. The staff told us
that the figure in the Results Report was derived from a calculation, but could not
provide the figures used in the calculation or the exact methodology used to compute the
result.

Some of the same instances were found at Africare. The reported results for 2 of the 10
outputs selected did not correspond to source documentation. For example, Africare
reported the local production of 2,805 kilograms of improved seeds under its Agriculture
component, but the supporting documentation showed 3,876 kilograms, a material
difference. Africare staff said that the difference between the two figures was due to the
inclusion of information on uncertified seed production in the supporting documentation,



                                                                                         9
which should not be included in the reported amount. However, they were unable to
provide documentation to substantiate the reported result of the improved seeds
separately from the uncertified seeds. In addition, Africare reported enrolling 6,262
children in the growth monitoring program and although immaterial, the supporting
documentation stated 6,330.

Results reported to USAID need to be accurate and supported with adequate
documentation in order to be validated. USAID guidance emphasizes the importance of
high quality, accurate and reliable results reporting information in order to properly
measure results. According to the Automated Directives System (ADS) 203.3.5.1, data
quality standards include validity, integrity, precision, reliability, and timeliness. Valid
data should clearly and adequately represent the intended result. In addition, the
Government Accountability Office’s Standards for Internal Control in the Federal
Government states that all transactions and significant events need to be clearly
documented, and that the documentation should be readily available for examination.

The lack of adequate documentation resulted from a lack of understanding on the part of
the cooperating sponsors of the importance of supporting documentation for reported
results and the documentary support that needs to be maintained. The errors in
reporting occurred because the cooperating sponsors did not completely verify data
before reporting to USAID. As stated earlier, in early 2006 the FFP staff had conducted
a data quality assessment of both CRS and Africare and provided recommendations to
the cooperating sponsors to improve the accuracy of their reported data. According to
the Deputy Team leader, CRS had made some improvements. However, despite the
close attention of the FFP staff, problems with the cooperating sponsors’ data accuracy
and validation still remain.

Validation of data and maintenance of documentation are important events in the overall
monitoring process. Without verification of reported data and maintenance of proper
supporting documentation, the data being reported to USAID/West Africa could be either
underreported or overreported. Since performance information is used to influence
program decision-making and resource allocation, this incorrect information could be
used to make inappropriate programmatic decisions for future activities. Therefore, we
are making the following recommendation.

   Recommendation No. 2: We recommend that USAID/West Africa require both
   cooperating sponsors, Catholic Relief Services and Africare, to develop
   procedures for verifying reported data with source documentation, documenting
   key assumptions and calculations, and maintaining documentation to support
   results and other data reported to USAID.




                                                                                         10
Improvement Needed in
Monitoring of School Feeding
Program

  Summary: CRS did not know whether the schools within its school feeding
  program were being visited at least twice a year as required because it did not have
  a system for tracking the monitoring visits. According to USAID guidance,
  recipients of USAID funding are responsible for the managing and monitoring of its
  activities. In addition, the Government Accountability Office’s Standards for Internal
  Control in the Federal Government describes monitoring as a part of internal
  control. Without a tracking system for determining whether the schools are being
  monitored adequately, CRS lacks information that could identify deficiencies in the
  monitoring program and thus cannot take appropriate corrective action.
  Furthermore, it leaves the program open to vulnerability to theft of the donated
  commodities used in the school feeding program.

CRS has established a “Memorandum of Understanding” (MOU) with the Government of
Burkina Faso’s (GoBF) Ministry of Basic Education and Literacy (MEBA) to monitor the
school feeding program activities in approximately 2,100 schools. To achieve this,
MEBA has assigned 54 controllers to various provinces and under the terms of the
MOU, the controllers are required to perform monitoring visits at each of their assigned
schools at least twice per year.     CRS also has 5 controllers who perform general
oversight of the MEBA controllers, conducting their own visits of a sample of schools to
verify the validity and accuracy of MEBA’s data. The MEBA controllers use a standard
form to document the results of their monitoring visits and those forms are submitted to
CRS.

Although CRS receives the forms submitted by the MEBA controllers, they did not know
whether the schools were actually being visited twice a year because they did not have a
system that allows them to readily track the monitoring visits. CRS cannot determine
which schools were visited and how often unless they manually sort through the
documentation. CRS suspected that all of the schools were not being visited twice a
year by MEBA controllers, as required by the MOU. For example, CRS mentioned that
in FY 2005 the MEBA controllers did not receive sufficient fuel from the GoBF for
conducting all of the visits. In addition, during one of our site visits to a school with the
feeding program, the cognizant MEBA controller told us that he is responsible for 201
schools in his zone and that the distance between schools makes visiting all of his
schools twice a year difficult. Without a system for tracking the monitoring visits, CRS
cannot assess the extent to which these factors affect the monitoring program.

The Government Accountability Office’s Standards for Internal Control in the Federal
Government states that internal control should generally be designed to ensure that
ongoing monitoring occurs in the course of normal operations, which include regular
management and supervisory activities, comparisons, reconciliations, and other actions
people take in performing their duties. Furthermore, Title 22 of the Code of Federal
Regulations (CFR) Part 211.5, states that cooperating sponsors shall provide adequate
supervision for the efficient operation of the program. This includes implementing,
controlling, and evaluating programs involving distribution of commodities, and making
warehouse inspections, physical inventories, and end-use checks of food.


                                                                                           11
Even though CRS has an MOU with MEBA, CRS is responsible for providing sufficient
oversight and monitoring to ensure its program is being implemented as intended.
Actively monitoring the schools as required is important because donated commodities
are highly vulnerable to theft. The oversight of a program of this magnitude should
include a tracking system with which one can readily determine the status of the
monitoring activities. Without such a system, CRS lacks specific data that could identify
deficiencies in MEBA’s monitoring and cannot take appropriate corrective action.
USAID/West Africa’s FFP staff were aware that neither CRS nor MEBA were able to
perform sufficient oversight of the school feeding program and have been monitoring the
situation closely. Therefore, to assist the USAID/West Africa FFP staff, we make the
following recommendation.

   Recommendation No. 3: We recommend that USAID/West Africa require
   Catholic Relief Services to develop a system that will enable it to determine
   whether the schools within its school feeding program are visited at least twice
   per year as required and that this information indicating frequency of visits and
   issues encountered during the visits is readily available.




                                                                                       12
EVALUATION OF
MANAGEMENT COMMENTS
USAID/West Africa concurred with all of the findings and recommendations in the draft
audit report, and indicated that appropriate actions would be taken to address the three
recommendations. Therefore, management decisions have been reached for the
recommendations. However, because the planned actions have not been completed by
the issuance date of this report, the three recommendations remain open until final
actions are taken by USAID/West Africa and coordinated with USAID’s Audit
Performance and Compliance Division within the Management Bureau’s Office of the
Chief Financial Officer (M/CFO/APC). The Mission anticipates final actions to be
completed by March 31, 2007.

Recommendation No. 1 recommends that USAID/West Africa require its cooperating
sponsor, Africare, to develop a plan for addressing its internal cash flow problems to
mitigate the effect on achieving planned outputs. The Mission concurred with our
recommendation and stated that it will require Africare to develop a cash-flow plan by
March 31, 2007. This plan will include reasons for the cash flow problems, effects and
mitigating factors. The plan must be approved by USAID/West Africa and will be
monitored through quarterly reports and monitoring missions.

Recommendation No. 2 states that USAID/West Africa should require both cooperating
sponsors, Catholic Relief Services and Africare, to develop procedures for verifying
reported data with source documentation, documenting key assumptions and
calculations, and maintaining documentation to support results and other data reported
to USAID. The Mission concurred with our recommendation and indicated it will require
each cooperating sponsor to submit a narrative description and template regarding their
verification and documentation procedures by March 31, 2007. In addition, the Mission
indicated it intends to conduct another Data Quality Assessment in Burkina Faso in 2009
to comply with the 3-year requirement of section 203.3.5.3 of USAID Automated
Directives Series (ADS).

Recommendation No. 3 recommends that USAID/West Africa require Catholic Relief
Services to develop a system that will enable it to determine whether the schools within
its school feeding program are visited at least twice per year as required and that this
information indicating frequency of visits and issues encountered during the visits is
readily available. USAID/West Africa concurred with the recommendation and stated it
will require Catholic Relief Services to develop and submit a formalized plan to meet this
recommendation by March 31, 2007 for approval by the Mission. The system will include
the name of the school, visiting official, observations, signature and date, etc. and this
information will be included in the quarterly reports and verified during regular monitoring
trips.

Management’s comments are included in their entirety in Appendix II.




                                                                                         13
(This page left intentionally blank)




                                       14
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Dakar conducted this audit in accordance with generally
accepted government auditing standards. This audit is part of a worldwide audit of
USAID’s P.L. 480 non-emergency monetization activities. The audit was designed to
determine if USAID/West Africa’s P.L. 480 non-emergency monetization activities in
Burkina Faso are achieving selected planned outputs.

In planning and performing the audit, we reviewed and assessed the effectiveness of
management control related to the non-emergency monetization program. We identified
pertinent management control as monitoring of monetization activities, accurate and
timely recording of transactions and events, and maintenance of documentation.

The audit focused on USAID/West Africa’s monetization activities in Burkina Faso and
the selected planned outputs for fiscal years (FY) 2005 and FY 2006 for activities
implemented by the two cooperating sponsors, Catholic Relief Services (CRS) and
Africare. In FY 2005, actual monetization proceeds totaled $5.3 million (CRS - $4.0
million and Africare - $1.3 million), and in FY 2006, budgeted monetization proceeds
totaled $4.1 million (CRS - $2.8 million and Africare - $1.3 million). The planned outputs
were selected from the universe of development assistance programs which were being
implemented by CRS and Africare. In reviewing the development assistance programs
for both cooperating sponsors, we identified 75 outputs (45 for CRS and 30 for Africare)
and judgmentally selected 22 outputs (12 for CRS and 10 for Africare) for in-depth
review. Our selection of outputs was made to ensure we included outputs for activities
in the various sectors such as education, agriculture, health and microfinance.

Fieldwork for this audit was performed from September 28, 2006 to October 3, 2006 and
was conducted at the USAID/West Africa Regional Food for Peace Office in Dakar,
Senegal, and in Burkina Faso at the offices of the cooperating sponsors Catholic Relief
Services and Africare in Ouagadougou, and field sites in the provinces of Gnagna,
Sanmatenga, and Zondomo.

Methodology
To answer the audit objective, we reviewed documentation such as relevant laws and
regulations governing the P.L. 480 Title II Program and applicable USAID policies and
procedures. In addition, we reviewed cooperating sponsors’ funding agreements,
development assistance proposals, implementation plans, annual results reports, annual
resource reports, quarterly commodity reports, and the 2005 Bellmon Analysis. We also
reviewed the Office of Food for Peace’s Strategic Plan and the Federal Manager’s
Financial Integrity Act Report for FY 2005.

We interviewed USAID/West Africa staff regarding their roles and responsibilities for
monitoring and oversight of the monetization program and the activities being
implemented by each cooperating sponsor, CRS and Africare. We also interviewed
cooperating sponsor program staff regarding the activities being implemented, their roles



                                                                                       15
                                                                              APPENDIX I


and responsibilities for monitoring of the activities, and data collection and reporting. In
addition, we interviewed cooperating sponsor commodities management staff about the
monetization process, commodities management, roles and responsibilities for
monitoring and oversight, and data collection and reporting. Furthermore, we verified
the accuracy of a sample of quarterly commodity reports submitted to USAID/West
Africa in FY 2005 and FY 2006.

The audit team reviewed the cooperating sponsors’ development assistance proposals,
FY 2005 results reports, and implementation plans to identify outputs for review. We
judgmentally selected 22 outputs (12 for CRS and 10 for Africare) for in-depth review.
We measured whether the selected outputs had been achieved by comparing the results
with planned outputs. We also determined progress by conducting site visits to observe
the activities first-hand.

The following criteria were used to answer the audit objective:

   •	 If 90 percent of the selected planned outputs achieved 90 percent of the targeted
      outputs, the audit objective would be answered positively.

   •	 If 80 to 89 percent of the selected planned outputs achieved 90 percent of the
      targeted outputs, the audit objective would be answered positively but with a
      qualification.

   •	 If less than 80 percent of the selected planned outputs achieved 90 percent of
      the targeted outputs, the audit objective would be answered negatively.

By reviewing source documentation, we verified the results of the selected outputs
reported by the cooperating sponsors’ for FY 2005. We also verified the cooperating
sponsors’ preliminary FY 2006 results of the same outputs. In assessing data quality
and verifying and validating the performance data with source documentation, we used a
materiality threshold of 5 percent for reporting accuracy.




                                                                                         16
                                                                           APPENDIX II 




MANAGEMENT COMMENTS




February 7, 2007


MEMORANDUM

TO:           Nancy T. Toolan, RIG/Dakar

FROM:         Jatinder Cheema, Director, USAID/West Africa /s/

SUBJECT:      RESPONSE TO IG AUDIT OF USAID/WEST AFRICA’S MANAGEMENT
              OF THE P.L.480 NON-EMERGENCY MONETIZATION PROGRAM IN
              BURKINA FASO. (AUDIT REPORT NO. 7-624-07-001-P)



USAID/West Africa (USAID/WA) acknowledges receipt of the Inspector General’s draft
audit report of the USAID/WEST Africa’s management of the P.L.480 non-emergency
monetization program in Burkina Faso. Mission Management would like to thank the IG
auditors for their professionalism and collaboration/coordination with USAID/WA
throughout this exercise. Below are USAID/West Africa’s responses to the three
recommendations of subject audit report.


Recommendation No.1: We recommend that USAID/West Africa require its
cooperating sponsor, Africare, to develop a plan for addressing its internal cash
flow problems to mitigate the effect on achieving planned outputs.

Mission’s comments: Mission concurs with the recommendation.

Action to be taken: USAID/West Africa will require Africare to develop a cash-flow plan
by March 31, 2007. This plan will include reasons for the cash flow problems, effects and
mitigating factors. The plan will be approved by USAID/West Africa and monitored
through quarterly reports and monitoring missions.

Recommendation No.2: We recommend that USAID/West Africa require both
cooperating sponsors (CRS and Africare) to develop procedures for verifying
reported data with source documentation, documenting key assumptions and
calculations, and maintaining documentation to support results and other data
reported to USAID.


                                                                                      17

                                                                             APPENDIX II 




Mission’s comments: Mission concurs with the recommendation.

Action to be taken: USAID/West Africa will require both Cooperating Sponsors (CSs) to
meet this requirement by March 31, 2007. USAID/West Africa will request a written
narrative and template on how they have met or plan to meet this specific
recommendation, which is also contained in the Data Quality Assessment (DQA)
conducted by USAID/WA and FFP/W in January 2006. The Monitoring and Evaluation
unit of each organization will be responsible for this template, which will be included in
their Annual Results Reports. USAID/WA will verify CSs’ compliance in implementing
this recommendation shortly after the March 31, 2007 deadline. Mission also intends to
conduct another DQA in Burkina Faso in 2009 to comply with the 3-year requirement of
section 203.3.5.3 of USAID Automated Directives Series (ADS).


Recommendation No.3: We recommend that USAID/West Africa require CRS to
develop a system that will enable it to determine whether the schools within its
school feeding program are visited at least twice a year as required and that the
information indicating frequency of visits and issues encountered during the
visits is readily available.

Mission’s comments: Mission concurs with the recommendation.

Action to be taken: Mission management will require CRS to develop a formalized plan
to meet this recommendation by March 31, 2007 for approval by USAID/WA. The
system will include the name of the school, visiting official, observations, signature and
date, etc. USAID/WA will ensure that this is included in the quarterly reports and verified
during regular monitoring trips.


Thank you.




                                                                                        18
                                                                                                APPENDIX III




COMPARISON OF PLANNED
AND ACHIEVED OUTPUTS
Table 1: Catholic Relief Services (CRS)
                                                       Agriculture
                                                                                   a                                    b
                              FY 2005 Results                    FY 2006 Results                 Results for 2-Year Period
                                             Percent                             Percent                              Percent
         Output        Planned Achieved Achieved       Planned      Achieved    Achieved      Planned Achieved Achieved
     Prepare sites
     for market
 1                       15        31         207%        30           31              103%     30         31         103%
     gardening (in
     hectares)
     Allocate plots
 2   to individual       300       551        184%       600          551              92%      600        551        92%
     farmers
     Train farmers
 3   in production        0         0         N/A        300          550              183%     300        550        183%
     techniques
     Train farmers
     in water
                                          c
 4   and soil            500      1,063       213%       1,250        1,522            122%    1,250      1,522       122%
     conservation
     techniques
                                                        Education
     Provide food
     to schools for
 5   daily meals       305,283   321,665      105%      319,159      468,736           147%   624,442    790,401      127%
     (# of
     beneficiaries)
     Provide take
 6   home rations       5,792     7,892       136%       5,960        6,935            116%   11,752     14,827       126%
     to girls
     Construct
 7   school              60        79         132%        60           11              18%      120        90         75%
     infrastructures
                                                       Microfinance
     Progress
     towards
 8   creating the         1         1         100%         1           1               100%      2          2         100%
     microfinance
     institution
     Number of
     clients with                         d
 9                      2,900     1,734       60%        3,500        3,381            97%     3,500      3,381       97%
     voluntary
     savings
     Train clients
     in various
                                          d                                 c
10   business           2,000     2,191       110%       2,000        779              39%     4,000      2,970       74%
     development
     skills




                                                                                                                19

                                                                                                   APPENDIX III 





                                                         General Relief
                                                                                      a                                       b
                               FY 2005 Results                      FY 2006 Results                Results for 2-Year Period
                                                  Percent                             Percent                              Percent
           Output      Planned Achieved Achieved Planned Achieved Achieved Planned Achieved                               Achieved
       Provide
       Title II
  11 commodities        13,033       13,502         104%    13,033       13,998        107%        26,066      27,500      106%
       to targeted
       beneficiaries
       Provide
       commodity
                                         d
  12 management           26          50            192%       26          54          208%          52          104       200%
       training to
       partners
Notes: 

a
  FY2006 results are year-end results compiled by the cooperating sponsor, but had not yet been formally reported to

USAID in the FY 2006 Results Report. 

b
  The planned outputs and achievements for the two-year period are either additive (FY 2005 added to FY 2006) or 

cumulative (FY 2006 incorporates FY 2005). 

c
  Achievement for this output could not be verified.

d
  Discrepancies were found between the reported amount and source documentation. We used the data indicated in the 

source documentation. 




Table 2: Africare
                                                           Agriculture
                                                                                      a                                        b
                              FY 2005 Results                       FY 2006 Results                 Results for 2-Year Period
                                             Percent                                   Percent                           Percent
         Output        Planned Achieved Achieved           Planned     Achieved       Achieved   Planned Achieved Achieved
     Support in the
     development
 1   of anti-erosive     164         278         169%         230         1,719           747%     394       1,997          507%
     constructions
     (in hectares)
     Construction of
 2   livestock           200          0           0%          200         492             246%     400        492           123%
     infrastructures
     Conduct
     demonstrations
 3                       220         250         114%         320         418             131%     540        668           124%
     of improved
     techniques
     Support local
     production of
     improved             15          30         200%         25           37             148%     40          67           168%
     seeds (in
 4   hectares)
     Support local
     production of                          c
                         N/A        2,805         N/A         N/A         5,996           N/A      N/A       8,801           N/A
     improved
     seeds (in kg)




                                                                                                                    20

                                                                                                     APPENDIX III 





                                                             Microfinance
                                                                                         a                                      b
                                 FY 2005 Results                       FY 2006 Results                  Results for 2-Year Period
                                                 Percent                                 Percent                             Percent
         Output        Planned     Achieved     Achieved     Planned     Achieved       Achieved    Planned     Achieved    Achieved
      Finalize
      collaboration
 5    protocols with      1            1           100%          1            1              100%      2            2         100%
      regional
      savings union
      Provide
 6    individuals         0            0           N/A          800         1,695            212%     800         1,695       212%
      microcredit
      Training of
      individuals in
 7    income              15          15           100%        1,500        1,751            117%    1,515        1,766       117%
      generating
      activities
                                                          Health and Nutrition
      Enrollment in
      growth
      monitoring          74          40           54%          104          74              71%      104          74         71%
      program (# of
      villages)
 8    Enrollment in
      growth
      monitoring                            d                                       c
                         N/A        6,330          N/A          N/A       12,976             N/A      N/A        12,976        N/A
      program
      (# of
      individuals)
      Construction
 9                        0            0           N/A          30           10              33%       30          10         33%
      of wells
                                                          Capacity Building
       Provide
  10 literacy            1,150        1,019           89%      2,425        787           32%        3,575         1,806      51%
       training
Notes: 

a
  FY2006 results are year-end results compiled by the cooperating sponsor, but had not yet been formally reported to

USAID in the FY 2006 Results Report. 

b
  The planned outputs and achievements for the two-year period are either additive (FY 2005 added to FY 2006) or 

cumulative (FY 2006 incorporates FY 2005). 

c
  Achievement for this output could not be verified.

d
  Discrepancies were found between the reported amount and source documentation. We used the data indicated in the 

source documentation.





                                                                                                                     21

U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
